                     National Science Foundation • Office of Inspector General
                     4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230




MEMORANDUM



DATE:         September 28, 2012

TO:           Mary S. Santonastasso, Director
              Division of Institution and Award Support

              Karen Tiplady, Director
              Division of Grants and Agreements

FROM:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

SUBJECT:      University of California, Santa Barbara
                Audit of Incurred Costs for National Science Foundation Awards for
                The Period January 1, 2008 to December 31, 2010
              Report No. 12-1-005


Attached please find the final report for the University of California, Santa Barbara Audit of
Incurred Costs for National Science Foundation Awards for the Period January 1, 2008 to
December 31, 2010. The objectives of this performance audit were to determine whether (1)
UCSB has adequate systems in place to account for and safeguard NSF funds, and (2) costs
claimed by UCSB for its NSF awards were reasonable, allowable, and allocable and in
conformity with NSF award terms and conditions and applicable federal financial assistance
award requirements.

Our audit questioned $6,325,483 of the costs claimed by UCSB to NSF because UCSB did not
comply with Federal and NSF award requirements. Specifically, we found $1,913,474 of
overcharged summer salaries; $2,821,676 of excess Federal Cash disbursements resulting from
UCSB not fulfilling its grant cost share requirements; $496,466 of inappropriate cost transfers
into NSF awards; $473,465 of indirect cost overcharges to NSF grants; $440,148 of unallowable
costs charged to NSF grants; and the utilization of $180,255 of remaining fellowship funds for
non-award purposes.
In accordance with Office of Management and Budget Circular A-50, Audit Followup, please
coordinate with our office during the six month resolution period to develop a mutually
agreeable resolution of the audit findings. Also, the findings should not be closed until NSF
determines that all recommendations have been adequately addressed and the proposed
corrective actions have been satisfactorily implemented.

If you have any questions, please contact Laura Koren, Director, External Audits at (703) 292-
8456.



Attachment


cc: Alex Wynnyk, Branch Chief, CAAR




                                              2
      University of California, Santa Barbara


                     Audit of
                  Incurred Costs
                       For

        National Science Foundation Awards
For the Period January 1, 2008 to December 31, 2010



           National Science Foundation
           Office of Inspector General

                 September 28, 2012
                   OIG 12-1-005
Table of Contents




Introduction                                         4

Audit Results                                        5

Findings                                              5

Recommendations                                      17

Summary of Awardee Response                          19

Appendix A: Awardee Response                         21

Appendix B: Objectives, Scope, and Methodology       29

Appendix C: Calculation of Questioned Costs Due to
 Cost Share Shortfall                                31




                                                          3
INTRODUCTION


The National Science Foundation (NSF) is an independent federal agency whose mission is “to
promote the progress of science; to advance the national health, prosperity, and welfare; to
secure the national defense.” To support this mission, NSF funds research and education across
all fields of science and engineering, primarily through grants and cooperative agreements to
more than 2000 colleges, universities, and other institutions throughout the United States.

NSF makes awards to external entities – primarily universities, consortia of universities or
nonprofit organizations. One such award recipient is the University of California, Santa Barbara.

UCSB is a public research university and is one of the 10 general campuses of the University of
California system. The University was originally founded in 1891 and joined the University of
California system in 1944.

UCSB is a comprehensive university, with more than 200 majors, degrees, and credentials
offered from its five schools and Graduate Division. Based on Fall 2011 enrollment figures,
UCSB is the 6th-largest in the University of California system, with 18,620 undergraduate and
3,065 graduate students. UCSB was recently ranked 42nd among "National Universities" and
10th among public universities by U.S. News & World Report. The university was also ranked
29th worldwide in 2010-2011 by the Times Higher Education World University Rankings. UCSB
houses twelve national research centers, including the renowned Kavli Institute for Theoretical
Physics, which is funded by the National Science Foundation. Indeed, UCSB receives significant
funding from NSF. In Federal Fiscal Year 2011, UCSB had 451 active NSF awards that totaled
$279,583,861. Thus, UCSB was among the top 30 largest NSF award recipients.

In support of the NSF mission, 1 the NSF-OIG conducts independent and objective audits,
investigations, and other proactive reviews, including the review of OMB-Circular A-133 audit
reports of NSF grantees 2, to promote the economy, efficiency, effectiveness, and safeguarding
the integrity of NSF programs and operations.

During one of our proactive reviews, we noted that the University of California System’s Fiscal
Year 2009 OMB-Circular A-133 (A-133) audit report contained a finding related to untimely
cost transfers. Finding 09-01 noted that the University did not follow its own policies and
procedures because cost transfers took place past the 120 days required by the University policy.
This finding referenced $100,000 of untimely cost transfers related to NSF Award SCI0503944.
This audit report also revealed that untimely cost transfers were a consistent issue for the

1
    For more information about NSF see the following website – http://www.nsf.gov
2
 Grantee – An organization or other entity that receives a grant and assumes legal and financial responsibility and
accountability both for the awarded funds and for the performance of the grant-supported activity.


                                                                                                                  4
University for fiscal years 2008 through 2009, and that the A-133 auditors recommended that the
University enhance its focus on achieving timely cost transfers to ensure compliance with the
University and federal guidelines.

Because the University of California A-133 audit report finding for untimely cost transfers
remained unresolved for several years and specifically referenced NSF, and because UCSB is
one of the largest recipients of NSF award dollars, NSF selected UCSB for audit. Our audit of
UCSB for the period January 1, 2008 through December 31, 2010 encompassed $144,041,463.25
of costs claimed by UCSB to NSF for 604 active NSF awards.



Audit Results – $6.3 Million Is Questioned Because UCSB Did Not Comply with
Federal and NSF Award Requirements


Our audit questioned $6,325,483 of the costs claimed by UCSB to NSF because UCSB did not
comply with Federal and NSF award requirements. Specifically, we found $1,913,473 of
overcharged summer salaries; $2,821,676 of excess Federal Cash disbursements resulting from
UCSB not fulfilling its grant cost share requirements; $496,466 of inappropriate cost transfers
into NSF awards; $473,465 of indirect cost overcharges to NSF grants; $440,148 of unallowable
costs charged to NSF grants; and utilizing $180,255 of remaining fellowship funds for non-
award purposes. We found that the University had a practice of charging untimely and unrelated
costs into its federal awards. This practice continued at the University throughout our audit
period and resulted in significant amounts of questioned costs, as outlined in our report Findings.


Finding 1: Over $1.9 Million of Overcharged Summer Salaries

UCSB did not comply with either federal regulations and NSF award requirements nor its own
policies and procedures that impose specific guidelines for salaries, wages and fringe benefit
charges to federal awards. Our audit found that UCSB systematically overcharged faculty
summer salaries totaling $1,913,473 during the months of June, July, August, and September
from 2008 to 2010.

According to UCSB policy, faculty are allowed to supplement their academic year salaries by
working during the summer months. Faculty who choose to work during the summer can earn up
to three months’ salary in addition to their normal compensation earned during the academic
year. 3 However, we found that UCSB’s system for allocating summer salaries to its NSF awards
is not based on actual work performed on those NSF awards by faculty during the summer
period.



3
 Academic year appointments are generally considered to be nine months in duration. Consequently, the appointee
earns 1/9 annual salary for each month worked. Thus, working up to three summer months could earn the employee
an additional three months, or 3/9, the annual salary amount of additional compensation.

                                                                                                              5
Instead, UCSB charged summer salary costs to its NSF awards based on a complex series of
mathematical calculations that seek to charge the maximum salary budgeted for the NSF award
while distributing a monthly salary costs over a summer period that does not coincide with exact
calendar months. In 115 cases, we found amounts charged to NSF for summer salaries exceeded
100 percent of the respective employees’ actual salaries. UCSB personnel explained that the
Personnel Activity Reports (PARS) for summer periods, which by University policy should
reflect actual labor effort worked, do not reflect the actual distribution of employee labor effort,
but rather reflect the mathematical allocation of salaries to the summer compensation period.
Thus, UCSB’s PARS do not provide reliable support for the labor costs UCSB charged to its
NSF awards for faculty summer salaries.

2 Code of Federal Regulations (CFR) 220 (formerly Office of Management and Budget Circular A-
21), Cost Principles for Educational Institutions, Section J, Number 10, states that "charges for
work performed by faculty members on sponsored agreements during the summer months or
other period not included in the base salary period will be determined for each faculty member at
a rate not in excess of the base salary divided by the period to which the base salary relates.” “In
no event will charges to sponsored agreements, irrespective of the basis of computation, exceed
the proportionate share of the base salary for that period. This principle applies to all members of
the faculty at an institution.” NSF Award and Administrative Guide, Chapter V, Allowability of
Costs, Section 1, Salaries, Wages, and Fringe Benefits, also indicates that "salary is to be paid at
a monthly rate not in excess of the base salary divided by the number of months in the period for
which the base salary is paid."

Additionally, 2 CFR 220 requires certification of labor effort/activity contributed by employees on
Federal awards. Specifically, paragraph J.10.b.(2) states that a payroll distribution system is required
that will " ... reasonably reflect the activity for which the employee is compensated by the institution;
and encompass both sponsored and all other activities on an integrated basis." Such a system must
provide for after-the-fact confirmation of employee activity by a responsible person with "suitable
means of verification that the work was performed." Paragraph J.10.c.(2) states that after-the-fact
activity reports for professional staff should be" ... prepared each academic term, but no less
frequently than every six months. For other employees ... the reports [should] be prepared no less
frequently than monthly ... " Accordingly, a timely certification is necessary to provide reliable
support for sponsored award labor charges.

Despite these requirements, the University of California established policies and procedures that
are inconsistent with the federal policy and NSF guidelines. Specifically, the University of
California Office of the President (UCOP) issued the Academic Personnel Manual (APM),
Section 600, Appendix 1, which includes Guidelines for Payment of Additional Compensation to
Academic-Year Appointees During the Summer. UCSB follows the APM, which specifies that
when the maximum period of service is to be 1/3 of the summer period, then the maximum
allowable compensation for one service month is 1/9 of the annual salary rate. The APM further
provides that when the maximum period of service is to be 2/3 or the full summer service period,
the monthly payment installment for those months may exceed 1/9 of the annual rate; however,
total compensation for that period may not exceed 2/9 or 3/9 of the annual salary rate, regardless
of the amount paid in a particular month.



                                                                                                        6
The APM also specifies that if the length of the service period for the summer will be
indeterminate or irregular, a daily rate should be applied to summer salary calculations.
However, this daily rate is based on a 19 day month rather than the actual number of days in a
summer month. Using 19 working days as the base for faculty summer salaries resulted in many
monthly salary charges to NSF exceeding 1/9 of the annual rates. In fact, the effective monthly
salary goes higher for each additional working day in a month where there are more than 19
days. As a result of understating the actual number of work days in a given month, monthly
salaries allocated to NSF awards during the summer months were often greater than the 1/9
annual amount one would expect, and ranged as high as 21 percent more than the expected
amount. The APM includes a table showing the salary factors to be used when calculating
summer salary for federal awards. Indeed, such salary rates are unreasonable and are inconsistent
with the Federal requirements as found in 2 CFR 220, Section J.


            Number of Days                  Factor For Calculating    Increase in Salary
            In Summer Month                 Summer Salary             Base Rate

            20 days                            1.0526                    +.0526

            21 days                            1.1053                    +.1053

            22 days                            1.1579                    +.1579

            23 days                            1.2105                    +.2105

            Specific Inflated Daily Rates

                      Source: UCOP, Academic Personnel Manual, Section 600, Appendix 1

Moreover, our audit found, that although the UCOP policy set specific parameters on the use of
this daily rate salary calculation (e.g., it should only be used for part-time employees or when the
labor effort expended during the summer service period will be irregular), most faculty summer
salaries were calculated using the summer salary factors listed above. We found that 30 percent
of summer salary charges to NSF awards during the three summers in our audit period were for
exactly 2/9 of an employee’s annual salary, indicating that each faculty member worked exactly
two summer months on their respective NSF awards in these years. However, UCSB’s certified
PARs did not support this labor cost allocation.

To illustrate, UCSB provided a certified PAR for a particular employee covering the summer
2008 term. According to the PAR, this employee worked 59 percent of his summer time on an
NSF award and 41 percent on another project. However, UCSB payroll records show that
$21,978, two months of the employee’s $10,989 monthly salary, was charged to the NSF award.
Thus, while the PAR states that the employee worked 59 percent of his summer effort on the
NSF award, NSF was charged exactly 2/9th labor costs rather than what the employee actually
worked on the award. Furthermore, based on the monthly day factors contained in APM 600, we
determined that this employee’s salary was allocated to the NSF award based on 11 work days in
June 2008, 23 days in July 2008, and 4 days in August 2008. Although UCSB made these

                                                                                                   7
Finding 2: Over $2.8 Million of Excess Federal Cash Disbursements Resulted From
Not Fulfilling Grant Cost Share Requirements

UCSB could not provide adequate, verifiable cost share documentation that supported the
required cost share for its four NSF Awards that ended during our audit period: Award No.
9982105 with required cost share of $3,072,745; Award No. 0225676 with required cost share of
$954,743; Award No. 0330442 with required cost share of $225,757; and Award No. 0821168
with required cost share of $466,385. As a result, UCSB received $2,821,676 in excess federal
disbursements, which we question. Details of each award and the required UCSB cost share
commitment are included in Appendix C.

2 CFR Part 215 (OMB Circular A-110), Section 23 and NSF’s Grant Policy Manual (GPM),
Section 333.6, Cost Sharing Records and Reports, require grantees to maintain records of all
costs claimed as cost sharing, and states that those records are subject to audit. These regulations
also state that cost-sharing expenses must be verifiable from the recipient’s records, not be
included as contributions to any other federal award, or funded by any other federal award.
Paragraph II.D.4 of NSF’s Award and Administrative Guide also reiterates these requirements.
Finally, the University of California Office of the President’s Contract and Grant Manual,
Chapter 5, Cost Sharing (issued April 23, 2004) states that when cost sharing contributions must
be documented on a project-by-project basis, each campus must also have a centralized tracking
system to capture committed cost sharing amounts, including those stated in effort reports.

During our audit, we requested that UCSB provide us with the cost share documentation that
supported the required cost share for its four NSF Awards that ended during our audit period.
However, UCSB was not able to provide verifiable documentation from its accounting system to
support the allowability of the majority of its cost share claims. This occurred because UCSB
does not require cost share contributions to be tracked on a project-by-project basis through its
accounting system of record. Instead, UCSB relies on the respective departments that administer
awards with cost share requirements to maintain their own independent, off-line systems to track
cost share contributions. Furthermore, UCSB personnel explained that the University does not
require certified labor effort reports from employees whose salaries are not paid, at least in part,
by federal funds. Thus, UCSB has no contemporaneous documentation for claimed labor cost
share of employees paid entirely with nonfederal funds.

For example, for NSF award 9982105 with required cost share of $3,072,745, we received a
series of annual Project Contribution Report signed by the Principal Investigator indicating
UCSB provided more than $3.4 million in cost share, including $2.6 million in contributions
from a private foundation. However, the supporting documentation provided with these
contribution report consisted of a typed list of expenses (e.g., fees and tuition; salary and wages;
equipment; supplies; boat, diving and marine shop; and, indirect costs). UCSB did not provide
any other supporting documentation, such as labor effort reports, receipts for equipment
purchases, and/or invoices showing costs and purposes of equipment purchases that would allow
the auditor to verify that the costs were actually incurred and that those costs were allocable or
allowable to the NSF award or that these costs were not claimed as cost share on any other
federal award(s).



                                                                                                   9
We did find one award for which UCSB maintained adequate accounting records for a portion of
its reported cost share contribution. NSF Award No. 0821168 provided $750,000 in federal
funding and required cost share of $446,385. UCSB provided two annual cost share reports
claiming the University contributed a total of $458,426 in nonfederal cost share. The claimed
cost share consisted of $295,356 in nonfederal funding of equipment purchases and $163,070 in
salary, benefits, and overhead for an UCSB employee who UCSB reported dedicated a portion of
his time to the project during the two-year award period. We were able to verify the $295,356 in
nonfederal payments for equipment through UCSB’s accounting system. However, UCSB
personnel explained that since the employee was not paid, at least in part, with federal funds,
there was no requirement for him to prepare certified time records, and thus, there were no
records to support his claimed contribution to the project. Therefore, we accept $295,356 of
UCSB’s claimed cost share on Award No. 0821168 and question $163,070. This example
demonstrates that UCSB’s accounting system is capable of tracking and reporting cost share
without having to rely on departments’ off-line systems.

As a result of our audit work, we determined that UCSB lacked an adequate system to identify,
account for, monitor and track the cost share it contributed to its NSF awards. Additionally,
despite the existence of University of California System policies and procedures requiring
centralized tracking and documentation of cost share, these requirements were not followed by
UCSB personnel. These deficiencies prohibited us from verifying and validating that UCSB met
the majority of its required cost share commitment for the four NSF awards we audited. Thus, we
question $2,821,676 of excess federal disbursements related to these four NSF awards due to
UCSB’s shortfall in meeting its cost share requirements.


Finding 3: Approximately $500,000 of Inappropriate Cost Transfers Into NSF
Awards

UCSB posted $496,466 of questionable cost transfers to its NSF grants. Cost transfers are
defined as the changing of an expenditure initially posted to one project or award over to another
project or award. We found $276,234 of salary and wages cost transfers between NSF awards for
labor costs incurred after the awards to which these costs were posted had expired; $71,133 of
unrelated equipment cost transfers into an NSF grant; $101,355 of cost transfers made into an
NSF grant at grant close out to spend out those grant funds; $23,274 of cost transfers from one
NSF grant that went over budget into an NSF grant with available funds; and $24,470 of cost
transfers for overhead, Department recharges, and materials and supplies that were unrelated to
the NSF award to which they were charged.

2 CFR 220, Paragraph C.4.b states that costs cannot be shifted to other grants to meet
deficiencies caused by overruns or for other reasons of convenience. Paragraph 71(b) of 2 CFR
215 requires recipients to liquidate 4 all obligations incurred not later than 90 calendar dates after

4
  According to federal administrative requirements, an awardee cannot incur costs on a federal award after the
expiration date of the award. Additionally, an awardee is required to liquidate, that is, to settle or pay off all
outstanding account balances related to expenditures incurred during the award period, not later than 90 calendar
days after the final day of the federal award period.



                                                                                                                     10
the grant’s total costs. The ODCs purchases were for general purpose lab supplies. Additionally,
although 56% of the grant funds had been spent on these supplies, less than 33% of the salaries
in the NSF approved grant budget had been incurred. The Annual Project report indicated that 12
people were working on the grant, however these numbers are not supported by the salaries paid
and charged to the grant; two of the individuals paid with these grant funds were also not
included in that report.

It is unreasonable to spend 56% of available grant funds on general purpose lab supplies when
ODCs were only budgeted for 10%. This discrepancy is magnified when the project did not incur
the requisite salaries to execute the grant objectives. Thus, we question $71,133, which
represents ODCs claimed ($124,878) in excess of the approved grant budget for ODCs
($53,745).

The remaining $23,274 of cost transfers were for budget overruns on one NSF award into
another NSF award. These cost transfers were made 4 months after the initial NSF award expired
and the costs were transferred into a grant which had available funds at the time of the cost
transfer.

For all these cost transfers, the University claimed costs to NSF on its FFRs for the original
awards before costs were actually incurred and made cash draw downs for those amounts
claimed. The University then spent the money after the grant expired for purposes which did not
benefit the original award, and then booked journal entries into the official accounting records to
“account for” funds that were originally drawn down without having incurred actual expenses.

Thus, UCSB grant managers and Principal Investigators did not adequately monitor NSF grant
expenditures and did not always adhere to federal regulations, NSF award requirements or
UCSB’s own policies and procedures when processing cost transfers. Further, cost transfers were
processed by UCSB personnel into grant accounts that were designated as closed in their
accounting system, e.g., inactive accounts which should not have had any additional expenditure
entries posted to them. As a result, UCSB claimed expenses on several NSF grants that were for
costs unrelated to the NSF grant in order to spend out remaining available grant funds.


Finding 4: Over $473,000 of Indirect Cost Overcharges to NSF Grants

UCSB charged indirect costs on 1,651 cost transactions that were not in compliance with its
negotiated indirect cost rate agreement with HHS and NSF policy. This resulted in $396,418 of
indirect cost overcharges. We also noted UCSB directly charged $77,047 of indirect costs to its
NSF grants for costs related to website security certification, university garage parking,
telephone calls, reproduction and photocopy, office furniture, and general purpose computer
equipment; costs already reimbursed to UCSB through its Indirect Cost Rate and/or its Service
Center Recharges.

2 CFR 220 (OMB Circular A-21) Section E.1 states that facilities and administration costs are
incurred for common or joint objectives and therefore cannot be identified readily and
specifically with a particular sponsored project, an instructional activity, or any other
institutional activity. This guidance further indicates that no final cost objective shall have

                                                                                                  12
allocated to it as a direct cost any cost, if other costs incurred for the same purpose, in like
circumstances, have been included in any F&A cost pool to be allocated to that or any other final
cost objective.

Additionally, UCSB’s negotiated indirect cost rate agreement (NICRA) with the U.S.
Department of Health and Human Services dated September 11, 2006, applicable to our audit
period, states that the indirect cost rates are applicable to a modified total direct cost base which
includes all the salaries and wages, fringe benefits, materials, supplies, services, travel, and
subgrants and subcontracts up to the first $25,000 of each subgrant or subcontract (regardless of
the period covered by the subgrant or subcontract). However, the NICRA specifically indicates
that equipment, capital expenditures, charges for patient care, tuition remission, rental costs of
off-site facilities, scholarships, fellowships, and the portion of each subgrant and subcontract in
excess of $25,000 are excluded from the modified total direct cost base for calculation of indirect
costs using the NICRA. Chapter 3 of UCSB’s Extramural Fund Accounting Manual specifically
reiterates the requirements of 2 CFR 220 and UCSB’s NICRA. In addition to the NICRA
exclusions, NSF generally prohibits allocation of indirect costs to participant support
expenditures.



Overcharging Indirect Costs

UCSB relies on its accounting system to automatically calculate and record the amount of
indirect costs it will charge to its NSF awards. Upon receipt of an award letter, the UCSB Office
of Research prepares an Award Synopsis that includes information about the indirect costs
applicable to that grant. UCSB’s Extramural Funds Accounting is then responsible for setting up
the accounting system with the appropriate indirect cost rate based on the Award Synopsis. The
system-calculated indirect cost amount is then automatically charged to UCSB’s NSF awards.

As part of our audit work, we compared the list of UCSB’s accounting system “Object Codes
Excluded from Indirect Cost” as found in UCSB’s Extramural Fund Accounting Manual, and
searched UCSB’s general ledger data for all object codes that should be excluded from
calculations of indirect cost. We then extracted all transactions in the general ledger for those
listed object codes. We found 1,651 transactions with indirect costs totaling $396,418 that were
charged on costs explicitly excluded from indirect cost in the areas of tuition remission, rental
costs of off-site facilities, participant support, and subawards in excess of $25,000. Because the
charging to UCSB’s NSF grants of indirect cost to these particular costs was in violation of both
UCSB’s NICRA and UCSB’s own policies and procedures, we are questioning the $396,418 due
to misapplication of indirect cost rates.

Charging Indirect Costs as Direct Costs

We conducted further data analytics on UCSB’s general ledger and extracted all transactions
within specific object codes for costs that appeared to be indirect in nature, but for which UCSB
directly charged its NSF grants. We found a total of $233,551 in UCSB’s general ledger of costs
for items such as website security certification, university garage parking, telephone calls,
reproduction and photocopy, office furniture, and general purpose computer equipment. We

                                                                                                   13
selected and tested 17 transactions totaling $51,847 to determine if these costs were indirect
costs. We found all 17 transactions were indirect costs that should not have been directly charged
to UCSB’s NSF grants.

In addition to these 17 transactions, we also tested telephone costs charged directly to NSF grant
0520415 in the amount $17,143 and found that these costs should be recouped through the
University's indirect cost rate rather than be charged directly to this award. Not only did UCSB
charge the indirect costs as direct costs, it also added additional indirect costs of $8,057 to the
indirect telephone costs for a total of $25,200 of unallowable, directly charged costs.

We therefore question a total of $77,047 of indirect costs that are unallowable because they
should not have been charged directly to UCSB’s NSF grants. We found this mischarging
occurred because UCSB 1) allocated indirect costs to items that should have been excluded from
indirect costs based on negotiated indirect cost rates and NSF policy, and 2) did not comply with
2 CFR 220 in ensuring that indirect costs are not charged directly to a federal award.




Finding 5: $440,000 of Unallowable Costs Charged to NSF Grants

UCSB charged unallowable costs to its NSF grants for: pizza lunches $6,085; pre-award cost
made with personal credit card for equipment 5 months before grant $3,166;        Computers
(general purpose supplies and equipment) $48,328; equipment not related to the award and not in
the award budget $204,996; and equipment purchases at the end or after the grant expired
$177,573.

According to 2 CFR 220, Section C.s, to be allowable for a federal grant, a cost must be
allocable to the federal award and be necessary and reasonable for the administration and
performance of the award. 2 CFR, Part 215 also requires that a federal award recipient’s
financial management system shall maintain “effective control over and accountability of all
funds, property and other assets.” NSF’s Award and Administration Guide, Chapter V,
Allowability of Costs, reiterates that unallowable costs, such as meals and entertainment, pre-
award costs, general purpose equipment, and other unnecessary and unreasonable costs should
not be charged to NSF awards.

General Purpose Supplies –            Computer Purchases

Our analysis of Purchase (flexcard) transactions posted into UCSB’s general ledger revealed
several transactions for purchases made for        computer products. We also noted that some
of these transactions were conducted near the end of the NSF award periods. We selected 18
transactions totaling $48,328, obtained supporting documentation for these transactions and
inquired of UCSB key personnel as to why certain          computer products were purchased at
the end of the grant period for three NSF grants. UCSB personnel advised us that the purchases
were made because the computers were needed for new post-doctoral researchers, for visitors’
offices, and for the server room. UCSB personnel could not explain how the purchases benefitted
the NSF awards. We found that all 18 transactions were for the purchase of general purpose

                                                                                                  14
supplies and according to NSF’s Award and Administration Guide, Chapter 5, Section B.2, such
purchases are unallowable charges. Thus, we question the $48,328.

Unallowable Food Costs Charged to IGERT Grant 0801627

We noted payments for pizza were charged to the grant every two weeks to provide lunch during
intramural meetings of IGERT students. Because food costs are considered unallowable by
nature unless they are in the approved grant budget, and these food costs were not in the
approved IGERT grant budget for intramural meetings, we question the $6,085 of food costs.

Transaction Charged to NSF Award No. 0832090 Prior to Grant Start Date

In conducting data analytics on UCSB’s general ledger, we found that UCSB accounting records
contained a transaction with a date of April 14, 2008, which was nearly 5 months before the
effective date of September 1, 2008 for NSF Award No. 0832090. UCSB personnel explained
that the principal investigator (PI) on this award wanted equipment to be available at the start of
the award and knew there was a long lead time involved for fabrication. The equipment was
purchased with a personal credit card. However, our review of NSF’s eJacket system award
documents indicated that UCSB did not request, and thus, NSF did not provide, approval for
these preaward costs. Therefore, we question the $3,166 because UCSB could not demonstrate
the transaction was not more than 90 days before the award effective date nor did it document
NSF approval of the preaward costs.

Unreasonable and Unallocable Equipment Purchases Charged to NSF Awards

We conducted budget-to-actual analytics in the UCSB general ledger for equipment to determine
if there were equipment costs charged to NSF awards for which there were no equipment costs in
the approved NSF budget. We further reviewed equipment transactions and extracted for review
those equipment costs which were purchased near the end of the award period or after the award
period expired. The equipment transactions in this testing category are separate from the
equipment transactions tested as part of the cost transfers presented within this report. We tested
$777,987 total from the largest transactions in each of these categories and questioned $382,569
of the transactions as unallowable.



                       Equipment Test                     Questioned costs
                        Near/After Award Period                  $177,573
                         15 NSF Awards
                       Not in Award Budget                        $204,996
                        10 NSF Awards
                       Total Questioned*                          $382,569
                       *25 Different
                       NSF Awards




                                                                                                 15
Our transaction testing results found that equipment purchased near or after the award did not
benefit the NSF program; equipment purchased for another federal program was charged to NSF;
several of the purchases were for general purpose equipment that benefitted multiple cost centers
and should have been capitalized and allocated across the University through the F&A rates; and,
purchases were made after the award periods expired.

For equipment purchased at the end of the grant period, we found that 70% of the equipment
costs charged to NSF Award 0507227 were incurred during the last 10 months of a No-Cost
Extension that was made to this four year award. The approved grant budget only included
$17,000 for equipment, and UCSB could not explain how these late equipment purchases
benefitted the NSF grant to which they were charged. Likewise, even though NSF Award
0833077 did not include a budget for equipment, UCSB charged $23,164 for equipment to the
grant with less than two months remaining. When we obtained supporting documentation for the
purchase, we found the equipment was to be used on a subsequent grant from the Department of
Homeland Security.

Our testing also concluded that for 5 of the 10 awards we questioned that did not have equipment
in the approved NSF award budget, general purpose equipment such as computer servers and
amplifiers were charged directly to NSF awards rather than to the University’s overhead
accounts.

In response to our asking why equipment was purchased when the budget did not include
equipment cost, or purchased at the end of an award, UCSB personnel advised us they believed
they could make such purchases because they were part of the Federal Demonstration Project
(FDP). However, while FDP intends to streamline the administration of federally sponsored
research, its ultimate goal is to improve “the productivity of research without compromising
stewardship. Thus, FDP organizations must still adhere to the requirements of the awards and the
federal regulations regarding costs claimed on their federal awards. Thus, participation in the
FDP does not relieve UCSB of the requirement to only charge reasonable, allocable, and
allowable costs on its NSF awards.



Finding 6: UCSB Used $180,000 of Remaining Fellowship Funds for Non-Award
Purposes

NSF award funds known as “fellowships” are awarded specifically to assist students in their cost
of education and provide a stipend. To receive an NSF fellowship award, a student must apply
for and be accepted for the award, and must be accepted into a specific institution of higher
education program. UCSB reported all fellowship funds as expended at the end of its Cost of
Education (COE) fellowship award, NSF Grant 0202759, drew down the remaining available
cash balance of the grant, transferred that cash balance of $180,255.35 to its institutional
accounts, and then expended those funds over the next several years after the award expired, on
costs unrelated to the fellowship program, for supplies and expenses, materials, and travel. We
also noted that the transactions were initially from UCSB’s general ledger Fund 21118 – NSF
Grant 0202759 but were later transferred to Fund 21599 (UCSB Institutional Account).


                                                                                               16
According to the award terms and conditions, award 0202759 was to support the National
Science Foundation Graduate Fellows affiliated with UCSB with an annual stipend of $18,000
maximum and $10,500 per Fellow as a cost-of-education institutional allowance. The grant
period expired on November 30, 2006. Also incorporated into the award were the provisions
NSF 97_26: Coordinating Officials’ Guide, which further specified that fellowship funds may be
carried forward from both current and prior year awards but only for use to support any NSF
Fellow duly enrolled at the Institution for an advanced degree in a field supported by NSF.
Finally, NSF fellows must apply for, and be approved, for the fellowship.

Upon further research, we found that UCSB had claimed costs for the $180,255.35 on the
award’s final FFR despite not having incurring actual expenses under the award. The funds were
transferred to the Institutional Fund and expended from 2007 through 2010, after the expiration
of the NSF award. We also noted that the costs for which the funds were used were not in
compliance with the award terms and conditions. For example, we found expenses for
communication service, freight, indirect costs, and general materials and supplies. As such, we
question the $180,255.35.




Recommendations

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
request UCSB to:

   1. Repay to NSF the $6,325,483 of questioned costs in this report. Specifically: $1,913,473
      of questioned summer salaries; $2,821,676 of excess Federal Cash disbursements;
      $496,466 of inappropriate cost transfers into expired NSF awards; $473,465 of indirect
      cost overcharges; $440,148 of unallowable costs; and, $180,255 of fellowship funds
      drawn down without having incurred expenses.

   2. Strengthen the administrative and management controls and processes over its federal
      awards. Processes could include:

           •   Developing monitoring and detective controls to ensure that employees are
               adhering to, and in compliance with, the University’s own system of policies and
               procedures.

           •   Reviewing its policies and procedures to include periodic reviews of individual
               departments and divisions for compliance with, and proper implementation of,
               established cost controls and to ensure that costs claimed on NSF awards relate to
               that specific award, are within the award budgets, and are incurred during the
               award period.




                                                                                               17
•   Revising its policies and procedures regarding the salary and wage costs it
    charges to its NSF awards so that those policies and procedures comply with
    federal and NSF award requirements.

•   Adhering to its existing policies and procedures regarding labor effort reporting
    and to enhance its cost share system so that the system complies with federal
    regulations and NSF award requirements.

•   Revising policies and procedures related to its indirect cost rates to ensure
    appropriate indirect cost rates are applied appropriately throughout the life of the
    award.

•   Conducting employee training to reinforce knowledge of UCSB cost control
    policies and procedures related to the use of federal funds.

•   Conducting employee training regarding prohibitions of using cost transfers to
    spend out remaining NSF award funds or to compensate for NSF award project
    overruns.

•   Developing procedures to ensure that cost transfers are prohibited from 90 days
    onward after an NSF award has expired.




                                                                                        18
Summary of Awardee Response and OIG Comments

The University of California, Santa Barbara (UCSB) does not agree with the findings in this
report and stated that it did not have adequate time to respond to the draft report. UCSB also
indicated that the findings could and should have been resolved during the audit stage, that
UCSB wanted to resolve the issues during the audit stage, but that the NSF OIG would not
provide requested information to UCSB regarding the findings, would not consider additional
information UCSB had related to the findings, and was not consistent in the reasons for
questioning certain costs.

The NSF OIG disagrees with these statements. The NSF OIG’s position is that the University
has been on notice regarding the contents of the draft report since August 14, 2012 and thus, had
45 days to respond to the findings in the draft report. Specifically:

   1) The University received notification, and obtained knowledge of, the contents of the
      notification of findings for our audit report on August 14, 2012. On that date, we also
      advised the University that the notification of findings would comprise the contents of the
      draft audit report. There are no additional findings from those which were presented to
      UCSB in the notification of findings in either the draft or final audit reports. At this
      meeting, we also advised UCSB that the role of the OIG was to make recommendations
      regarding the findings in the audit report and that the resolution of those findings would
      occur during the audit resolution process.

   2) NSF OIG had an in-depth discussion of the findings with the University on August 14,
      2012, and provided a data presentation to the University regarding those findings on
      August 21, 2012.

   3) NSF OIG had numerous telephone conferences and email exchanges with UCSB
      personnel regarding the notification of findings which comprised the contents of the draft
      and final audit reports.

   4) In response to UCSB’s request, NSF OIG sent our Audit Manager back to the University
      for an additional field visit during the last week of August 2012 to consider additional
      documentation and to conduct additional interviews with University personnel regarding
      the findings in our report. This is beyond the normal practice of the OIG. We considered
      all additional data, documentation, interviews and meeting presentations provided to us
      by UCSB as a result of this visit. However, the majority of what UCSB provided to us to
      respond to the report findings did not change our position regarding the findings in the
      report.

   5) In response to UCSB’s requests for more information regarding what we questioned,
      NSF OIG did provide transactional and other data to the University for the questioned
      costs in the notification of findings. We provided transactional data for questioned costs
      for cost transfers for salaries, grant overruns, costs unrelated to the purpose of the grant,
      cost transfers to closed NSF awards, details regarding the indirect costs charged directly

                                                                                                  19
       to NSF awards, as well as sent details related to the allocation of overhead to all
       excludable items. We also provided a specific list of the transactions we questioned for
       equipment and provided the names of the individuals at UCSB that we communicated
       with regarding those questioned costs. We did not send back to the University their
       summer salary transactions but advised them the questioned costs for summer salary were
       related to the transactions that they had provided to us. As noted above, we returned to
       the University to consider cost share documentation that was not initially provided to us.

Additionally, during the course of the audit, the OIG kept UCSB apprised of its communications
with various UCSB personnel and officials as OIG was required to coordinate all its activities
through one designated individual at UCSB’s campus, the Manager of Extramural Funds
Accounting. The Manager of Extramural Funds Accounting was responsible for coordinating all
audit questions, answers, and requests for documentation related to our audit. This coordination
included communications between the OIG and UCSB personnel. Thus, UCSB should have full
knowledge of the individuals that OIG communicated with on the audit issues and should have
the information it needs from its management of the audit process with regard to the items
questioned in the report.

As discussed during the Exit Conference with UCSB on September 19, 2012, the purpose of the
draft report was to communicate the auditor’s draft findings and recommendations to the
University for their review and comment. According to Federal policy regarding audit resolution
found in OMB Circular A-50, the response to the audit report can include “agreement or
disagreement on reported findings and recommendations.” Once the report is final, the audit
resolution process then takes over to resolve outstanding disagreements on the report’s findings
and determine a course of action to take on agreed-upon recommendations.

Finally, we did not indicate to the UCSB that the findings presented in the report were resolved
but instead stated on several occasions that the findings remain as stated. Thus, we believe the
audit report is clear and stands as it is.




                                                                                                   20
22
23
24
25
27
Appendix B: Objectives, Scope, and Methodology

The objectives of this performance audit were to determine whether (1) UCSB has adequate
systems in place to account for and safeguard NSF funds, and (2) costs claimed by UCSB under
a number of NSF awards were reasonable, allowable, and allocable and in conformity with NSF
award terms and conditions and applicable federal financial assistance award requirements. To
accomplish the first objective, we reviewed UCSB policies, procedures, and systems, as well as
relevant policies and procedures imposed on UCSB by the University of California, Office of the
President (UCOP). We also interviewed appropriate UCSB personnel responsible for
establishing and implementing control policies, procedures, and systems and performed tests of
UCSB systems to assess their effectiveness in providing reliable management information and
safeguarding NSF funds. Weaknesses identified are discussed in relevant sections of this report.
To the extent weaknesses affected our ability to rely on UCSB data, we limited reliance on those
data and expanded substantive tests of transactions.

To accomplish the second objective of determining reasonableness, allowability, and allocability
of costs, we examined all awards for which costs were reported to NSF during the period of
January 1, 2008, through December 31, 2010. This provided an audit universe of approximately
$143.4 million, in more than 266,000 transactions, across 604 individual NSF awards. Our work
required reliance on computer-processed data obtained from UCSB and NSF. At our request,
UCSB provided detailed transaction data for all costs charged to NSF awards during the audit
period. We obtained NSF data by directly accessing NSF’s various data systems. To select
transactions for further review, we designed and performed automated tests of UCSB and NSF
data to identify areas of risk and conducted detailed reviews of transactions in those areas.

We assessed the reliability of the data provided by UCSB by (1) comparing costs charged to NSF
award accounts within UCSB’s accounting records to reported net expenditures, as reflected in
UCSB’s quarterly financial reports submitted to NSF for the corresponding periods, (2)
performing General Ledger to Sub-Ledger reconciliations of UCSB accounting data, and (3)
reviewing and testing the parameters UCSB used to extract transaction data from its accounting
records and systems. Based on our testing, we found UCSB’s computer-processed data
sufficiently reliable for the purposes of this audit. We did not review or test whether the data
contained in, or controls over, NSF’s databases were accurate or reliable; however the
independent auditor’s report on NSF’s financial statements for fiscal years 2010 and 2011 found
no reportable instances in which NSF’s financial management systems did not substantially
comply with applicable requirements. 5 As this office monitored the work of the auditor, we
believe a reasonable basis exists for relying on the accuracy and completeness of NSF’s data.

In assessing the allowability of costs reported to NSF by UCSB, we also gained an understanding
of the internal controls structure applicable to the scope of this audit through interviews with
UCSB staff, review of policies and procedures, conducting walkthroughs as applicable and reviews

5
 The financial statements were audited by an independent public accounting firm operating under a contract
monitored by NSF’s Office of Inspector General.

                                                                                                             29
of general ledger transactions and accounting system and database documentation. We determined
UCSB’s compliance with UCSB and UCOP policies and procedures, as well as the following:

   •   Office of Management and Budget Circular A-21, Cost Principles for Educational
       Institutions (2 C.F.R., Part 220)
   •   Office of Management and Budget Circular A-110, Uniform Administrative
       Requirements for Grants and Agreements with Institutions of Higher Education,
       Hospitals, and Other Non-profit Organizations (2 C.F.R., Part 215)
   •   National Science Foundation Proposal and Award Policies and Procedures Guide, Part II:
       Award & Administration Guide
   •   National Science Foundation Federal Demonstration Partnership Terms and Conditions
   •   Award-specific terms and conditions

We identified instances of noncompliance resulting in questioned costs that are discussed in the
relevant sections of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions.

We held an exit conference with UCSB officials on September 19, 2012.




                                                                                                   30
Appendix C: Calculation of Questioned Costs Due to Cost Share Shortfall

Award #9982105

Award 9982105 required cost share of $3,072,745. UCSB provided a series of annual Project
Contribution Reports, signed by the Principal Investigator, indicating UCSB provided more than
$3.4 million in cost share. This amount included $2.6 million in contributions from a private
foundation. However, the supporting documentation provided with this contribution report
consisted of a typed list of expenses (e.g., fees and tuition; salary and wages; equipment;
supplies; boat, diving and marine shop; and, indirect costs). UCSB did not provide any other
documentation, such as labor effort reports, receipts for equipment purchases, description or
details of what was purchased or any other type of supporting documentation that would allow us
to verify that the costs were actually incurred and that those costs were allocable or allowable to
this NSF award.

Thus, UCSB did not provide verifiable documentation for the cost share UCSB claims it
contributed to NSF Award 9982105. As a result of the questioned cost share, the maximum
federal share to which UCSB is entitled is calculated as follows:

       Federal funds disbursed                   $5,037,908
       Nonfederal contributions                        -0-
       Total project costs                       $5,037,908
       Federal share %                             x 0.621
       Federal funds earned                      $3,128,541

UCSB received excess federal disbursements of $1,909,367 ($5,037,908 - $3,128,541).

Award #0225676

This award provided NSF funding in the amount of $2,910,756 and required UCSB to provide a
nonfederal cost share of $935,550. We again received a series of Project Contribution Reports,
signed by the Principal Investigator, indicating UCSB provided cost share of $954,743, including
$585,346 provided by a private foundation. The reports indicated the majority of the cost share
was in the form of salary, benefits, and indirect costs. However, UCSB did not provide certified
effort reports for the employees whose time was claimed as cost share on the award. Thus, we
were unable to independently verify that the salaries and associated benefits and overhead were
allocable to the NSF award and were not claimed as cost share on other award(s).

Thus, UCSB did not provide verifiable detail to support its contribution claims of cost share for
NSF Award 0225676. Therefore, we questioned all claimed nonfederal cost share contributions.
As a result of the questioned cost share, the maximum federal share to which UCSB is entitled is
$2,202,892, calculated as follows:




                                                                                                31
       Federal funds disbursed                  $2,910,029
       Nonfederal contributions                       -0-
       Total project costs                      $2,910,029
       Federal share %                            x 0.757
       Federal funds earned                     $2,202,892

Thus, UCSB received excess federal disbursements of $707,137 ($2,910,029 - $2,202,892).

Award #0330442

We received two Annual Project Contribution Reports signed by the Principal Investigator to
support the required cost share of $225,757 for this award. The two forms indicated total
nonfederal cost share contributions from a major corporation in the amount of $251,304.48
($42,213.48 for the period 12/03 through 6/04 and $209,091.08 for the period 7/04 through
6/05). However, UCSB did not provide any other additional supporting documents, e.g.,
documentation to show the details of the cost share (e.g., how the amounts on the form were
derived, e.g., salary, wages, purchases, etc.).

As such, UCSB did not provide verifiable documentation for the cost share contributions it
claims for NSF Award #0330444. Therefore, we question all claimed nonfederal cost share
contributions. Based on the approved federal share ratio of 50%, UCSB received excess
federal disbursements of $110,605.50 ($221,211 x 50%).

Award #0821168

NSF Award No. 0821168 provided $750,000 in federal funding and required UCSB to provide a
nonfederal cost share of $446,385. UCSB provided a pair of annual cost share reports claiming it
contributed a total of $458,426 in nonfederal cost share. The claimed cost share consisted of
$295,356 in nonfederal funding of equipment purchases and $163,070 in salary, benefits, and
overhead of a UCSB employee who supposedly dedicated a portion of his time to the project
during the two-year award period. We were able to verify the $295,356 in nonfederal payments
for equipment through UCSB’s accounting system during a meeting with several UCSB
personnel at the university on August 30, 2012. However, UCSB personnel explained that since
the employee in question was not paid at least in part with federal funds there was no
requirement for him to prepare certified time records of his claimed contribution to the project.
Thus, there is no contemporaneous record of actual labor effort contributed to the NSF project.
Therefore, we are questioning a portion of the cost share contributions claimed by UCSB. As a
result of the questioned cost share, the maximum federal share to which UCSB is entitled is
$655,438, calculated as follows:

       Federal funds disbursed                  $ 750,000
       Nonfederal contributions                    295,356
       Total project costs                      $1,045,356
       Federal share %                            x 0.627
       Federal funds earned                     $ 655,438

Thus, UCSB received excess federal disbursements of $94,562 ($750,000 - $655,438).

                                                                                               32
